                                                .'




             HOSPITAL BEST PRACTICES
               NURSE RECRUITMENT AND
                     RETENTION




         " !o"
   YICIS.
  -Jt-




           ""Ja

OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS AN INSPECTIONS

                                    NOVEMBER 1988
                                                                                               .'




                              OFFICE OF INSPECTOR GENERAL

   The mission of the Ofce    of Inspeto Genera (OIG) is to
   ness and integrty of pro                                 prmote the effciency, effective-
                                  in the Unite States Deparnt  of Health and Huma Serces
   (fS). It dos th by developing method to detet and prvent frud, waste and

  Created by statute in 1976, the Inspetor Genera keeps both                        abuse.
  fuly and                                            the
             curntly inored about progrs or maagement problems    Seta
                                                                  and the Congrss
                                                               and reommends cor­
  retive action. The OIG peors its mision by conductig
  tions with approxitely 1, 200                            audits, investigations and inspe­
                                sta strtegicaly located arund
                                                                  the countr. 

                     OFFICE OF ANALYSIS AND INSPECTIONS

 Th repo is pruced by the Ofce of Analysis and
 major offes with the OIG. The other two              Inspons (OAI, one of the

 tigations. The OAl conducts insptions which  ar the
                                                 ar
                                                        Of
                                                    tyicay
                                                          of Audit andte Ofce of Inves­
                                                           shan-te stues designed to
 determe     prgr   effectiveness, effciency and
                                                 vuerbilty to frud or abuse.

                                       THIS REPORT

 Entitled "Hosita Best  Prtis
                            in Nur Rectmnt and Reacntion,
 conduCt to descbe tehnques use
                                       by hospitas to   att and reta nurs.intion was

                                                          " ths

The repo was prpar unde
                         the dition of
Gener Ofce of Analysis an Insptions,
                                     Region
                                              AI
                                            E. Shpiegelm, Regional Insptor
followig Ofce of Anysis an Insptions sta:                 Parcipatg in ths   prject were the


Joy Qu, Region m,
Eileen Sil Region
                    ProjeCt    Ltr
Debo Haey, Regi IX
    gart Shell, Regk V
Mata Zita,
               Heua
                                                      .'




      HOSPITAL BEST PRACTICES
        NURSE RECRUITMENT AND
              RETENTION




                Richard P. Kusserow
                INSPECTOR GENERAL




OAI.03-801121
                                      NOVEMBER 1988
                                                     ...........................................           ... ..... ................
                                                                                                                             ........
                                     ...........................................................................................
                                                         .............................................. ...                      .      .'




                                             TABLE OF CONTENTS

   OVERVIEW.. ................. 


   BRAUNER PSYCHIATRIC HOSPITAL............................................................ .

         Atlanta , Georgia

  EVANSTON HOSPITAL ............ ..... .... 

         Evanston, ilinois

  HER MANN HOSPITAL.................................................................. ............................
        Houston , Texas
  I NG HAM     ME DICAL CENTER....................................................................................

        Lansing, Michigan

 KAISER- PERMAN ENTE HOSPITAL SYSTE M ..
                                                                        ........................................... no..

        Northern Caliornia

 CRAWFORD W. LONG HOSPITAL........................................................................... 10
       Atlanta, Georgia
 METHODIST HOSPITAL .......... ............ 

    Gary, Indiana                           ..................................................................... 12


 NEW ENGLAND MEDICAL CENTR
       Boston, Massachusetts                           ....................................................................... 14


ORLANDO GENERAL HOSPITAL............................................................................ 16
       Orlando, Florida

MEDICAL CENTER AT PRINCETON
       Princeton , New Jersey                                                                      ............................ 17

S1: LUKE' S EPISCOPAL HOSPITAL...... ........... ......................... .............................. 20

      Houston, Texas
SEQUOIA HOSPITAL.................................. ....... ................... ......... ....... 

   Menlo Park , Caliornia                                                                        .................... 22


WASHINGTON HOSPITAL CENTER
      Washington, D.
                               ........................................................................ 24
                                                OVERVIEW


     PURPOSE

     The pwpses of ths inspetion
     retan nures, and (2) determe       we to (I) descbe tehniques use by hospitas to
                                        the extent to which nures                                  attct and
     mang thugh reprsentation     on hospita governing               parcipate in hospita decision
    presents our findigs on hospita nure recruitment
    nurse Parcipation in decision
                                                                 boes and key     cottes.  This report
                                                               and retention techniques. Findings on
                                    mang ar      contaned
                                                                in a   separte repon.



    BACKGROUNp

   Nurse Retention Problems
   Even though the supply of
                               registe nurs (Rs) is at an
   are experiencing the most severe RN
   workig, and of these 68 percent      shortge  in recent
                                                              al
                                                           history.
                                                                          ti
                                                                       high of 2 millin, hospitals
                                                                    Eighty percent of RNs are
                                    ar employed in hospitas. Hospitas
   cause sicker patients
                         reuir highly sophisticated car. At the
   choosing to wor in other health
                                                                          nee more nurses be-
                                                                 same time, more nurses are
                                   car settngs. ACCorg to
   (AH) sureys, hospita RN vacancies                                     Amer
                                                                          Hospita Association
  percent by December 1987.              more than doubled             frm 4.4 pent in 1983 to 11.3
  Many factors contrbute to the 

                                 curnt nuring        shortge. They include

  limite advancement 

                       oppottties, chagig work scheduls,                         saar Compression        and
  patients and shorr stays, lack of                                      frstron cag for sicker
                                                                        in
  care decisions and fewer students regnition
                                    opting for and respt, lack of autonomy in
                                                nuring carrs. mang patieO!
 HHS Nursing Commission
 In December 1987 , Heath and Human Servces
 cial Commssion to Stdy the                (HS)                 Seta Otis Bowen appointed a spe­
 tion pla. The Secta'
                            nur shOrge and
                                           provi   hi with a repo and cortive ac-
 fort Admnistrtor of thes COmmssion on Nursing is
                           Heath Ca Financing
                                                  hea by Calyne K. Davis , PhD.
 itiated at the Commssion                                   Admnitrtion. Ths
                            s reuest.                                             inSpetion was in-



 METHODOLOGY

We asked State Nures
                     Associations in nine States
which had develope strategies to                 arund the countr to identify hospitals
bas on their reommndations. reruit and retan nurs. Eleven hospitas were selected
                                 Two adtional hospitas
telephone surey.                                                  we
                  Between June and September 1988, we visiteidentied               dug Our ear I ier
the Distrct of Columbia to
                           obta ilormtion about reibnent and
hospitas raged in size frm 89
                                                           13                hospitas in 9 States and

                                                                             retetion strtegies. The
                                to over 800 be. As
                                                             it tued out,   al were in   urban area,
                                                                                                         .'




  and most had achieved substatial reuctions in their
                                                      nurse turover and vacancy
  implementig their strtegies. We also identified elements that these hospitas hadrates since
                                                                                   in common.

  Earlier this year, durng a telephone surey for the another inspetion
                                                                     , we also took the time to
  ask chief executive offcers (CEOs) and chief nursing officers (CNOs) at a nationwide
                                                                                        radom
  sample of 93 ' Urban and   ru hospitas what they were doing to deal with the nurse shonage.
  We wante to gain additional perspetive on the strategies and
  recruit and retan nurses.
                                                               tehniques       used by    hospitals to



  FINDINGS

 The best practices hospitas visited shar commn elements which may account for the suc­

 cess of their nure reitment and retention strategies. These elements include:


       Management commitment to nursing and nurses.
               Strng suppon     frm the chief executive offcer    and governing   boy.

               Nursing deparent commtment to the intrnsic value of
                                                                   nuring.

       Strong nursing leadrship.


              Strtegic planing.

              Commtment to patient car.

              Decentrized decision mag.

              Nurses involved in decision mang.

              Prblem identification and solution.

              Commtment to education.

              Employee recognition.

      Competitive salars      and   benefits.

The opinions of CEOs and CNOs contacted in our telephone
                                                              surey parlel these findings.
Higher pay, incras reitment effort and educational benefits
                                                                   were the tehniques cited
most fruently. Urban hospitas also mentioned a varety
                                                           of other approaches, includig
flexitime, grter autonomy in patient car , affiliation with nursing schools,
                                                                             incrasing nurse
membership on commttees and improving relations between medcal and nursing
provision of child car                                                                stas. The
                         servces was generaly   limited to lare   urban hospitas.

This repon highlights a few of the best practices sen durng our hospita
                                                                        visits and provides
contacts for readers who would like more infonnation on
                                                         parcular techniques or approaches,
The hospitas are presented in alphabetical order.
                                                                                                    .'




                                    BRAUNER PSYCHIATRIC INSTITUTE
                                                 Smyrna, Georgia



   Background, Founded in 1910, Brauner Psychiatrc Institute was the fIrst psychiatrc hospital
   in Georgia. Tody it is one of thee psychiatrc facilties in the for-
   tem , occupying 32 acres in a campuslie settng nonhwest of           profIt Brauner Hospital Sys­
   and outpatient psychiatrc and substace abuse treatmnt program for Brauner offers inpatient
                                                                  Atlanta.
   Its 89- bed inpatient acute psychiatrc care facilty also                 adolescents and adults.
   vices for adolescents.                                   provides State certfied educational ser­

  Twenty-one percent of Brauner s nurses have
                                              baccalaurate degrs and 10 percent
  masters prepard. The nur tuover rate, 12 percent in 1986,
  first 6 months of 1988. Durng the same                       decased to 5 percent for the
  cent. The CNO             crts         period, the vacancy rate drppe from 15 to 2 per­
                         this improvement to Brauner s system of decentrize
  management
                                                               nuring



  Decentralized Management: 

                              Brauner s nursing deparent is headed by an Associate Ad­

  ministrator who has decentrize management
                                               to the unit level. The CNO' s management

  philosophy is summarze in Brauner s curnt
                                              nursing brochur:
           Nurses ar valued members of our progressive
                                                        multidisciplinar team and their
           ideas, independent judgment and accountabilty
                                                         ar encourged and rewarded in a
           professional annosphere of mutual trst and
                                                            parcipatory management.

 Staf RNs manage nuring units, serve on multidisciplinar commttees (quality assurance
 safety, planning), and co-lead patient councils.
                                                  Nures are
 tive. In the words of the CNO, " there is always a positive encouraged to excel and to be crea­

                                                                   performce expectation.

Nursing Council:
                    Although she represents nuring on the hospita'
team , and regularly attends meetigs of the Boar of                s executive maagement

                                                     Trustees and key commtts, the CN 0

recognized that there was no nure representation at the Brauner Hospita System corporare
level. She established a           Nursing Council to discuss nuring issues system-wide and make
presentations to corprate management.
                                         The Council has ben positively viewed at the cor­
porate level and enhances the pro-nursing          envionment thoughout the hospita system.
Management Diney Style: 

                                      Four year ago, the CNO hir maagement
Disney Corpration to trn                                                   consultants from the
                                 in parcipatory management techniques. The theme which
                                     sta
has evolved frm this trning is that each employee can make an
the success of the crbe the atmsphere at
                                                                   imponat contrbution
                                          Brauner as a " carg, supportve famly,
                                                                                   " to which
 each of us contrbute day. " This attitude also applies to operational concerns, such  as staff.
ing, patients ' progress and interpersonal relationships.
                                                                                                  .'




Brauner s Employee of the Month program recognizes employees who embody the
                                                                                 carng and
supportve philosophy which now penneates the nuring deparment. Rewards
                                                                             include a
Mickey Mouse watch, a cash git, picture publication in the employee newsletter and private

parkig for one month.


Nursing staffalso enjoy yearly outings and seasonal softball games, in which all hospital staff
are invited to tae par. Brauner makes their swimmng
                                                        pol available for use by staf and
their famlies, and sponsors a Grad Slam Tennis Tourament for employees.

Hugs Not Drugs: 
  In conjunction with the Atlanta Hawks, Brauner has established a pro-
education anti-dg    campaign called "H4gs Not Drgs. " Now in its second year, the program
includes recorded " rap " messages by members of the professional basketball team.

The anti-drg message is brought to local schools by a multidisciplinar   team with   financial
suppon frm hospital admnistrtion. Employees view ths progr
                                                                  as a positive example of
the collegial atmsphere at Brauner. In the words of a sta nure, "
                                                                  s al of us working
together that maes Brauner a hospital to be proud of. "

Contact for more informatn:
         Brauner Psychiatrc Institute
         3180 Atlanta Street, S.
         Smyra, Georgia 30080

        Cherr E. Spencer- Stak ,   MN , RN , CNAA

        Associate Admistrator

        (404) 4 0081
                                                                                                           ,'




                                           EVANSTON HOSPITAL

                                             Evanston, Illnois


 Background.:   With 450 beds, Evanston Hospita is par of a two-hospita system in suburban
 Chicago affIliated with Nortwestern University School of Medcine.
                                                                      Last year, nure recruit­
 ment included about 60 percent experienced nurses, with the remainder being new graduates.
 Half of the nursing sta have diplomas or associate degres, 43 percent have baccalaureate
 degrees and 7 percent are masters prepar. The hospita has a tota of 664
                                                                           budgeted staff RN
 positions.

 Peer Reviw: 
 Severa year ago, nuring adistration saw a nee to revise the perfonlance
 review system. The problem was that supervisors were not able to observe all
                                                                              staf behavior
 and were relying on second hand data to evaluate performance. They established a peer
 review system that is now used thughout the hospita.

Sta responsibility is the basis for the per         review system: al staf review and ar reviewed
by their peers. Each person is reviewed by two reviewers -- one chosen by the head nurse and
one chosen by the person being reviewed. One reviewer is at the same level as the reviewee,
while the second is on a speial management admnistrtive career trck.
                                                                        The reviewee meets
with the reviewers before meeting with the head nure, who retans deision authority
promotions and pay rases. The head nurse also faciltates the
                                                             enti proess by   providing
guidace to reviewers and advising them on how to discuss issues with the reviewee.

Marketing To High School Students:
                                     The local high school offers a health car coure in
which students rotate though dierent aras of health car
                                                         delivery, includig nursing
vices at Evanston. Whe at the hospita , students are supervise by a unit preeptor. ser­

Nursing sta          have also inti   ted a program to educate high school counsellors about the profes-
SIon.

Continuing Educaton:     While the hospital provides no paid educational leave, scholarships
of $2 00 per year for 2 years are available to cover relate expenses such as
                                                                             travel and
babysittg.

Contact/or more             in/ormatn
          Evanston Hospita
          2650 Ridge Avenue
          Evanston, llinois60201

          Suzanne Durburg, RN, MS

          Associate Chaian

          Deparent of Nursing

          (312) 492- 6409
           , "                                                                                                  ,'




                                            HERMANN HOSPITAL

                                               Houston, Texas


      Bf1kground:
                      Established in 1925 , Hermann Hospita is
      no ta suppon. With 908
                                  licensed and 550 stafed
                                                                     nonprfi nonsectaan , and receives
     cal Center complex. Hermann is the 
                   bes, it is located in HOuston
                                             primar   teaching  facilty for the University sof
Texas Medi­
     Medical School. Nursing serices 

     CNO and 38 nuring units operatear           decnlr
                                            by 32 nure
                                                             with    th  line dictors reponing
                                                                                                Texas
                                                                                                   tn the
                                                        managers.
    Fifty-five peent of the nursing
    uates, 30 percent have
                                        sta have assoiate degrs, 10 pecen,
                             baccalaw-ate degrs and                                ar diploma grd.
    has 944 budgeted RN sta 
 nurse                       5 percent ar masters prepared.
                                                                                             Hermann
    nurse-patient ratios in crtical carepositions, andmedcal
                                         are 1:2 with  a stablesurgical
                                                                vacancyunits
                                                                           rate of 10 percent.

                                                                                                Prsent
                                                                                 rangig from     1:5 to 1:8.

    Matching Patent Census 10 

                                    the Nurs     Resource:
    aware that there were not enough                          Ealier ths year the
                                                                            CNQ beam acutely
                                           staf nurses to
    the hospital. She informed the hospita'          provide quality car to all patients admitted to
   staffing combined with increasing patients other
                                              acuityexecutive
                                                     can      offcers and the
                                                                              BOar that shon
                                                         reuce qualty of care, cause job dissatis­
   faction and strss , and
                            leto burout She
   to the avaiable nursing sta.                          rendedthat the number of bes be matched


  The BOar agrd to match the
                              patint acuity to
  CNO this change enables us to manage the workexistig nure resourcs.
                                                 environment  instead of In
                                                                          thethe words of the
  managing us.                                                                envirnment
  The nursing Staf were positive about this
  tagible evidence that
                                          Boar level policy change, as it
                       nursing issues ar imponal. The                     prvided them with
  toward improving the work envionment and a measurble change
                                                          
    was seen as a significant step
  commtment to quality patient                                     demonstration of the hospital'

                                    car.
 Research Staff Positin:
                              Hermann performs medcal
 clients, including other area hospitals, the University ofresearh for the
                                                            Texas and  a wide
                                                                           U.
 rage of
                                                                                        external
 vice, as well as internally for
                                 sta physicians and the
 dinate researh, the hospita established a research 
 nuring depanent. In

                                                                             S. Public Health Ser­
                                                                                  an effon to COOr­

 researher.                                           position fIled by a doctoral prepared
                                                                                                    nurse
The nurse researcher reviews the proposed Protocol with the
sesses clinical safety, patient rights issues                afected nurse manager, who as-
monitor the studies. A nursing Protocol is, stafing requirements and        the unit s ability to
 managers provide in-servce education prior   to initiation. Staff
                                           developed and nursing orders are wrtten.



 thoughout the process, pancularly on feasibilty and quality feeback is solicited
review proess enables them to conl1l and                                 assurce. Sta believe thaI the
                                            maage
ing an opponunity for collaborative interaction   with their
                                                          a       work envirnment,
                                                                                     as well as pro- .d.
                                                             multidisciplinar team.

                                                                                                ,'




 Flexibility through Job Sharng:
                                    Hermann encourages job flexibilty. One type of flexible
 scheduling is job sharng, where two nures shar one full- tie
 their hour, salar, and benefits in accordace with their        position. The nures divide
                                                          personal and professional needs. This
 option is avaiable to new graduates as well as to experienced nures.
 ProfessioTUIPractice Unit:
                                    In an effon to addrss problems associated   with "
                                                                               floati" be­
tween different units, a professional practice progr
                                                       which does not alow floatig has been
pilote successfully in the Pediatrc Crtical Care
                                                   Unit. The enti nuring sta have agreed
rotate " on call" duty on their tie off to ensur
                                                 adequate     stag
                                                                 24 hours a day, 7 days a
week. Nures are salared and the number of hours worked is dependent     on patient census and
acuity.

Petformnce Plus   Program:  Performance Plus is an individualze orientation program for
RNs and LVNs. It begins with an assessment of a new employee
sonal and decision makng skils. Masters prepar                  s clinical, technical , interper­
                                                  clinical instrctors then design individual­
ize progrs using a simulated clinical laboratory along with self-
                                                                        learing packets,
tapes/videos and slide presentations.

The progr is mandatory for new employees, and is also
                                                       mae
who wish to acquire, updte or practice both fundaenta and available to experienced staf
                                                         sophisticated nursing skills. The
CNO believes ths progr has streamned the orientation program
professional competency of                                     whie enhancing the
                                   sta.
Contact for more informatn:
     Hermn Hospital
     Texas Medical Center
     6411 Fannin
     Houston , Texas 77030- 1501
     Carol Ann Cavour, RN , MS, CNAA
        Vice Prsident for Nursing Afais
        (713) 797- 4011
                                                           INGHAM MEDICAL CENTER
                                                                  Lansing, Michigan

         Background:
                           Ingham Medcal Cente is a non-
          though it is self suppog,                        prfit hospita in Lasing, Michigan. Al­
                                      membe of the govering       boy ar selecte by the
                                                                                               couniy.
         Ingham is hudgeted for 365 RNs. About 35
         masters       prpar. The RN to patient rati vares              pent
                                                               have bahelor degres and
                                                                                                3 pecent
         surgical unirs. Ingham
                                  s RN vacancy and
                                                            /Tm  1:1 in intensive car to
         IS- IS pecent for the                       tuOver rates have rema                  1:4  in medical
                                pat 3             ye.
        Michigan Slate Univerity (MSU), asOne reon for this may be the hospita'
                                                                                   Slable    at 6         and      pen,
                                                nurse                   mar
        employed until their spouses complete their studies. to MSU Stunrs
                                                                                          s prximity
                                                                                 tend to reman
                                                                                                       to

        The cwrnt CNO cam to
                             Ingham abut IO
        eight Vice Prsidents, she also serves on 
                    ye ago as Vice Prsident for Nuring. One of
                                                                    the Executive Commttee.
        The CNO' s magement phiosophy is
                                  based on enhancing the profeSSionalsm of
    thugh grate maagement responsibilty. Eah                                                                    nurs
   manager (PM) who has
                                         hig                  fig            maor unit is    hea  by a patient car
   prsentig the unit budget to the and                                authorty, an is responsible for
                                                           gOVerg boy. Cosistent with the CNO'preparg and
   PC'         s ar encourged to regar

   sional nursing sta.                                     themselves
                                                                       as lead   rather     th          philosophy,

                                                                                            as sUpeso of the profes.
                                                                                                                    the

  Enhtleed Pro!essi1lism thrugh M tlagemelt 


  hospital decision makng.
  has     involved
                         the adoption of a sees
                     sta nurs                                of methods
                                                                            Respons:

                                                                          to enhance
                                                                                                 Ingham Overl     strtegy
                                                                                                    ' respnsibilty in
             Commillee Partieipotion:
                                        Intiate a dead ago, RNs now
            the hospita' s professional practice                            reprsent their colleagues
            management and ethcs/professional    , quality assurance, infection control                                on

                                                    stadas commttees.                   , risk

           Enhnced S'4 Nure
                                        This prce involves the relationship between
                                         Responsibility:
           slaff nures an
          respnsible to a
                          asso nuring adstror   (ANAs). Each RN on
                         prmar ANA                                                   ever shif,
          the sam sht as the RN. Sincefor      plannig patient
                                             no chare nures                            ca
                                                                     whether or not that ANA works
          nigh, shif, eah RN is personally 
                  ar on duty durg
                                                                                 the evenig and
          has develope with her ANA.           responsible for the patient                       ca
                                                                                within the plan she

The CNO has alo worked on eliminatig 

render the necssar car in                  the " hour mentaity.
                               the necssa time. Ths              " Rather, RNs ar expected
but also that the nurse is not                        mes
                               expete to be there a fuS hour only thai no overe is paid
                                                           not

quir S hour. The focus is strctly                              if the patint car dos not
                                                      prfessional: on the      patient rather than on the clock.
 Nurses ar also responsible for decisions on such matters as capital equipment for patient care,
 They are expeted to reach consensus on the most cost efficient and patient effective equip­
 ment purchases, and to make recommendations to hospita maagement.

                             Ingham recently expanded the seven-step floor nurse career
       Yearly Step Increases: 


      progrssion to nine steps. For advancement to the ninth step, RNs must demonstrate a
      high level of accomplishment in such activities as:

                  collaboration with other health professionals to benefit the patient;

                  service on hospital commttees;

                 parcipation in professional organizations; and

                 contrbutig to the development of unit goals.

Development of these additional steps is expected not only to deal with the problem of wage
and advancement compression for staff nurses but also to foster
                                                                grater professionalism. A
nurse at Step Nine can ear more than a supervisor and be considere    for management posi­
tions even without prior formal management experience.

Contact for more informaton:
     Ingham Medical Center
     401 W. Grenlawn Strt
     Lansing, Michigan 48910- 2819

     Dorothea Milbradt, RN,   MSN

     Vice President for Nursing

     (517) 334- 2349
                                                                                                              ,-




                                 KAISER. PERMANENTE HOSPITAL SYSTEM

                                                      Northern California


    Background:               The Kaiser Foundation Health Plan
                                                     staed durig World War II to provide
   health care for Kaiser- Pennanente s Caifornia employees. The system is divided
   cally and the nonhern regional offce monitors 14                                geographi­
                                                    medcal centers and 26 clinics thoughout
   nortern Calfornia.

   The system employs approximately 6, 00                 sta nurs in the nonhern ara.
                                                                              Most of the hospi­
   tas are long-established community facilties and four are teaching hospitals. The RN vacan­
   cy rate for the fIrst quarer of 1988 was 5.4 percent
                                                                 , down from the 1987 rate of 7. 1 percent.
   Turover stoo at 7               percent in 1987.


  Kaiser has piloted a varety of program in hospitals thoughout the system.

  Boosting Nursing School Enrollment: 

                                          In a cooperative effon with the University of San
  Fracisco (USF),     associate degr nures can reeive BSN degrees
 talored 15-month program. Tuition for this                            by completing a specially
 cause Kaiser staf serve as instrctors and
                                              progr    is one- third less than the regular rate be­
                                            Kaiser provides the
 strctued to enable nures to continue working while attendingclassrom. The progr
 dents complete the clinical work in their own hospitas.           classes 2 days per week. Stu-
                                                          They ar expecte to work in a Kaiser
 facility at least 1 year before           acceptace to the   progr.
 Joint Practice Committees:
                               The Kaiser Hospita in Sacramento, Caifornia has initiated

  several joint practice commttees to give physicians and nurses an opponunity to "

  sues together. " Commttees on peatrcs, obstetrcs, intensive                      tackle is­
                                                                car, diabetes, hospice and

 medcine/surgery meet monthly to discuss problems and issues in a collegial environment.
 While most physician members ar volunteers,
                                                 nurs ar selected by pers. Nurse commttee
 parcipation is also included in the trning budget. As expressed    by the CNO, " money spent
 to involve nurses is money well spent.

Paired Care: 
         The Sacraento facilty is piloting
                                                     paid car model on one medicalsurgical

unit of the day shift. The hospita has paied
                                              summer intern nursing students who have com­

pleted a semester of clinical trning with three RNs to assist in rendering bedside
RNs review and assess the interns ' basic nursing skils.                           car. The


Reduced LIers of Management:         In the Sacrento facilty,
                                                                seven clinical coordinators
(equivalent to head nurses), along with a few assistat clinical
and the night shift, are the only management layer between thecoordinators
                                                                 CNO and for intensive care
arves at the hospita by 6:30 a. m. daly, primaly to                        sta RNs. The eNO
                                                      be accessible to the night sta. She
maintans high visibilty by makg rounds of several units each day and rotates services
thrughout the week. Durng oriemation       for new staf, the CNO emphasizes her open door
policy so the nurses wil realize she is always accessible. The CNO feels that "
                                                                                           staf nurses

have a lot of autonomy. They have to mae some goo decisions... and should not be afraid to
call the physicians ditly when necessar.

Forgivable Loan Program: 
   In a new program simiar to the Federal Health Prfessions Nurs­
ing Loans of the 1960s, students can apply for loans after completing half of their nursing
trning. After grduation ,     students work at Kaiser for a specified number of years.

Most new hospital progrs       ar developed by multidisciplinar team of physicians, nurses,
human resources sta and admnistrtors. These working groups have existed in the Kaiser
regional settng for years to " advise, lobby and negotiate " for improvements in health car
delivery and maintaning goo sta.

Contact for more informatn:
         Kaiser Foundation Health Plan, Inc.
         Nonhern Calfornia Region
         1950 Franin Street, 4th Floor

         Oakand, Californa 94612- 2291

         Kathn L. Bray, RN, MBA

         (415) 987-2964
                                                                                                                   ,-




                                         CRAWFORD W. LONG HOSPITAL
                                               Atlanta, Georgia

      Background:
                     The Crwford W. Long
      acute car facilty located in Atlanta (CWL) Hospita of Emory University is a 503­
                                          , Georgia. Over 75 percent of its nursing        bed
      BSN degrs.
                    Oprating at incrasg levels of capacity                          sta have RN or
      was 6.        6 percent and the tuover                  sice 1986,           the 1987 vacancy rate
     since 1976 when the RN                   rate was 8.5
                                                             pent
                                        tuover rate was 85 percent. These statisrics have improved Steadily

     In an effor to idntify
                                     factos contrburing to the
     ducted thee sureys:                                         unacceptable level of tuover
                                                                                                   , the CNQ Con-
               Telephone inteiews with
                                          nurs who had resigned.
               inadequate orientation and supervision as             Hal offortheleaving.
                                                         their main reason         respondents idenrified

              Curnt nuring Staf were
             primaly interested in patient    as wby they stayed at CW.           Seventy-eight pecent were
                                                 car and   patient focuse issues.
            Curent staf were
                               asked to identiy the job
            Parient car was the numbe one               factors they considered most

                                            response,  followed   by                   importnt.

            working relationships.                                   aduate   stafftng and congenial

   Analysis clearly indicate that nures
  late to beide nuring. However                   were focuse on parient
                                                                         car     and     their concerns were re-
  leaving      dit      patient care.
                                              , the only opponiries for
                                                                              car advancement reuired
  As a result of the sureys,
  rion   prgrs, implementeCW
                           a
                              adted a prmar
                             Pretorship progr,
                                                                 nurg prace
                                                                                            imprved ornta­

 der  ta  fore. The tak for coduCt 2
                                           year of
                                                      and establshed a
                                                    reseh                I6-mebe
                                                                                  mol,


                                                                                         lad­        car
 interviewed sta on al shift,                                 into other available prgrs
                              and assessed available resours befor
 of action. The CNO served as a consultant to 
                       reCommnding a Course
                                              the task force.

 Two- Track          Career
 Prgr. The fOllowing yea,Ina1980,
                              Lar: CWL pilOted the Nursing Caeer Advancement
                             dual-track

                                       , five- level
 provides for carr advancement in both patient care and            car lar was implemente It

                                                                        admstration.
Every nure           wa expete to apply for a carr
salares would be 
                                         lad
                                                           posirion.
                          reuced and nearly 300 received salares     One inducemnt
                                                                 incrases.

                                                                                                was that no
remained active durng the transition from a                                  The tak force
ing car to one wber prmorions                         system which promoted away
                                           wer bas on                                     frm beside nurs­
managerial areas. They provided workshops and behavior
                                              interacted competence
                                                         with employees
                                                                    in either clinical or
the transition.
                                                                                           as neeed to aid
                                                                                                 ,"




year experience. The continuity of care provided by RNs and nure practitioners is credited
with creatig an envirnment which is conducive to sta retention.

Another element of ths   carr ladder is that advanced degrees are not reuir to progress
thugh the five steps. However, the hospital does provide scholarhips     for nures wishing to
pursue advanced degres.


The CNO crets the carr ladder with retention of a highly skilled nuring staff with an
average tenur of 5 to 7 years, able to provide quality car to acutely il patients within today
cost-contanment envinment. The CWL employs no nur reiter; positions are filled by
employees ' recommndations or responses to local advertsing.

The nursing deparent s dedcation to patient care is fuer demonstrated by their invened
organizational chan which features the patient and famly at the very top.

Neonatal Nurse Practitiner   Program:     Eight year ago, CW pioneere the neonatal perina­
ta nurse practitioner program in the State of Georgia, to provide 24- hour coverage in a high
risk service ara. The relationship among sta nurses on this unit is both collaborative and
collegial. There ar no RN vacancies, and the average sta RN has at least 5 year ex­
perience. The contiuity of care provided by RNs and nurse practitioners is credted with
creating an envirnment which is conducive to sta retention.


Contact for more informatn:
     Crawford Long Hospital of Emory University
      550 Peachtree Stret, N.

      Atlanta, GA 30365
      Katherine Pope, RN, BSN
      Assistat Admistrator for Nuring
      (404) 892-411
                                                                                                                                           ,'




                                                            METHODIST HOSPITAL
                                                                        Gary Indiana

   Background:
                Methodst Hospita is a
   and Menillvile, Indiana. It spoosor a60 be
                                        famly                                     two-hospita sYStem with
   teching/traiing site for                                                     practi residency                          camuses in Gar
  Methodst is afliated with Indiana
                                             nurng, dieta, physical
                                                     therpy,                   and serves as a                     prgr
                                       Univerity Nonwest in  Phaacy,     and   social  Wor.
  progr, clincal elective courses, and   nuring researh. Eightythe aras  of  nuring
  have                                                                                school extern
  prepar.
           diplomas
                            or assoate degrS, 


                                         percent have              pent
                                                                  19       of  the  nursing staf
                                                                                         bacalurtes and
                                                                              percent ar maters
 Five nur clical levels
                           employe at ths hospita
 and Parcipation in educational   and reseh         ar bas on sk, me
 rather than to fonnal                        activitis. Pay scales
                                                                    ar
                                                                                spia prjects
                       educatin. Methodst has 691
and tuover rates for the                                                 tied to cliical level
                                                     budgeted sta nurse
                           fit half of 1988
                                            we 8. pent and 15              positions. Vacancy
Collaboraon wilh Local                                              pent.
ses, Methodst has entere into a VaretyToofmatan a
                                            Uni"",.iI:
                                                                                     COntinuig

                                            collabortive ventus with of wel-educate nur-
                                                                                                          supply
Nursing School.
                                                                        the                                           Inana University
         Stunt Exern Program:
                     

                                    EStblished in 

         externs ha ben so                               1975,    the hospta' progr of
         hi    into petment
                              successful tht last
                                                      ye,      80 pettnt of thei senior externs Student
                                                                                                                           hig
                               poitions.     The
         imo the hospital at an even earlier stage  program
                                                       of their has now ben expanded
                                                                  education.                   Were
                                                                                        to brg students

                      Level I extes, new nuring
                      to suppon professional
                                                                       students with no coure wor complete
                                              sta for a few hour of non-                   , ar hired
                      objective is to                                    patient car duties. The
                                      prvide ealy exposur to                       the     hospital
                                                                                                          philosophy and culture.
                      Level n    extes,          students with at 

                      bed and breakast                                   leat   one semeste of coure work,
                                                   " duties, such as feeng                                                  ar assigned
                                                                                         patients.
                  Level m extes, in their
                                                             fial year of       nuring Stdies, Provide
                 patient car        under         RN supervision.                                                    SOme   dict
   W ork -S

                         Clinical Electives: 

  Students expeence in             A joint work -Study cliical

                        ha-torecruit aras such                 electve coure prvides

  units. The hospita pays tuition and               as the operating rOOm and
                                       provides a smal stipend. Students work neurological

                                                                                with

  clinical       prepto and ar taught bystaff nurse
 response, this clinical elective program  may      expert. Due
                                                be expanded       to neonata
                                                             to the
                                                                                                            the extrmely positive
 medcalsurgical and oncology 


                                                          nits.
                                                                                               .'




     ProjeclOverlap:
                         This is a joint project, now in the planning stages, aimed at recruiting
     bright high school students into nursing. High school students
     to take university level science courses,                          wil have an opponuniry
                                                 earing both high school and college credirfor
     their coure work.

Contact for more infonnatn:
     Methodst Hospital

     60 Grat Stret

    Gar, Indiana 46402

    Sherr M. Burger, RN ,    MA

    Vice President of Patient Car
                                    Services

    (219) 886-4795
                                    NEW ENGLAND MEDICAL CENTER

                                              Boston, Massachusetts


   Background:
                          bed acute car facilty in Boston
                           A 469-
   cal Center serves as a diagnostic and refen-al center for, Massachusetts,
                                                              multiple       the New England Medi­
   ties and is the primar teaching facilty for Tufts University School medcal and surgical' special­
                                                                          of Medcine.

   is known for specific expenise in cardiology, cardiac-                              The Center

                                                    thoracic surgery, oncology, onhopedics
   and neonatology. With an RN complement of just over
   durig 1986 and   1987 and stands at 4 percent for the
                                                                   60, the nure   vacancy rate was zero
   turover rate is 12 percent                            fist        9   months of 1988. This year s RN

  Nursing Case Management: 

                                The Nursing Case Management advanced professional practice
  model was implemented 2 year ago, and
                                           is crted with attrcting nurses to the
  ter. The approach is more than a nursing model; it is also a philosophy of nursingMedical
                                                                                     and patient
                                                                                             Cen­
  care.

 Nursing case management is the application of
 level by the primar car
                                                    trditional maagement skils at the individual
                             giver to achieve positive outcomes economically and
 within a specifc period of tie. Fundaental                                            effciently
                                                   to this system is the belief that the case manage­
 ment role is best filled by the cliician
                                           who relates diectly to the patient and famly. Care is
 provided by a formal nursing
                                 grup practice, and is coordnated by the nurse case manager in
 collaboration with the physician.

 Development of the nursing case management
 the nursing role in the hospita setting.
                                                       moel involved a complete rexamnation of
                                                 Hospita maagement recognized that nurses were no

 longer satisfied to function in the shadow of the medcal profession and that they wanted to

 parcipate in decisions on patient care and the
                                                 restrcturng of delivery systems. They felt

 that responding to the CUIent nurse
                                              shortge required a reformulation of the
 that recruitmnt and retention strategies would fall shon if this was not done.nurse role and

As a professional practice model, nuring case maagement
and unique contrbution as collaborative 
                     acknowledges nures ' valuable

                                           members of the health car team. It also responds to

many of the complex issues facing admnistrtors, maagers, and
strategies to achieve quality car in a cost effective manner.     clinicians as they develop

Managed car reuires            a skilled   cliicianmaager who
the institution.       Nurs have traditionally not ben skilledis incOmmtted to both the patient and
                                                                     management, nor have they been
given the information , tols or authority to manage
                                                     car beyond their own shifts. The case
manager is the         priar
                          nurse responsible for developing individual patient care

The case manager is accountable for meeting those                                  Outcomes,

of stay, (2) limited resources and (3) established   Outcomes  within (1) an appropriate length
                                                         stadas.
                                                                                 ,"                ,-




  Cae managers use     stadaze     plans of care that have ben jointly developed by nursing and
 medcine for given mecal case
                                   tys. The plans are highly detaled and provide an explicit
 stadad by which to continuously monitor patient progrss. Case managers
 breviated versions of cas maagement plans known as crtical pathways. also use ab­
 way shows the key incidents, e. g., tests, tratments, discharge planning, thatThe crtical path­
                                                                                must occur in a
 timely fashion to achieve an appropriate length of stay.

 Accordig to the CNO, nuring case management has elevated
                                                                  nuringinto
authority within the institution, while clearly defining and translating  to aactual
                                                                                position of the

                                                                                     practice
profession s goals of collaboration and accountabilty.


Initial data suggest that this model has: (1)
                                              promote nures ' professional development and

satisfaction , (2) met or reuced lengt of
                                            stay timelines, (3) achieved expected clinical out­

comes, (4) promoted collabOrative practice, 

                                              coordiated car and continuity of car,
utilized appropriate or reuced resources.                                           and (5)


In an effon to shar this model as widely as possible, Medcal Center
tas thoughout the U. S. and in England, publish a                   sta consult with hospi­
The Center for Nuring Cae Management,
                                                  quarrly newsletter entitled Definition-­
                                          " hold workshops and author publications.
Contact for more infonnatn:
     New England Medcal Center
     750 Washington Strt, Box 861

     Boston, Massachusetts 02188
     Phylls Hoopman, RN, MSN

     Dirctor, Surgical Nuring

     (617) 956- 5572
                                                                                                                    ,"




                                              ORLANDO GENERAL HOSPITAL

                                                    Orlando, Florida


  Bflkground:
                           Orlando General Hospita is a not-
  license be. It                                             for- profit community hospita with 197
                                employs about 180 RNs, of whom 20
  Last year, the overa tuover                       percnt wor on a pan-tie
                              rate for nures thughout                           basis.
                                                      the hospital was about 18
 The hospita's
                                                                                                        percnt.
               obstetrcs and gyneclogy (OBIGYN unit 

 May OBIGYN nures wer resigng out of                fac a Pancularly serious prblem.

 wher they felt ineXpeence and
 morivato. Reitmnt of new OBIGYN inaduate.
                                          frstrrion
                                           Money
                                                       being "                fr
                                                                       to other unts
                                                                             appe           flte"
                                                         to be only a tempor
 of expensive prvate agency                     spealists was   nur
                                                                prvig dificult , and the use
                            nurs was incring.
 obstetrcs nures researched and established a professional
                                                    In an attmpt
                                                           practicetounit.                  adss
                                                                           ths problem , the
ProfessilU Pro/i
in the nuring unit, the PPU
                                     Unit (PPU):
                                                        Base on the concpts of
                                                                        autoomy and self-governance
responsible for the                       opte    as a coletely separte enrity.
as a whole. Nures make          ty    and qualty of         car given
                                                                                Eah nure is
                                                                        an the success and prucrivity ofpenally
                                         decisions on care, scheduling and budget.                       the unit

Key elements of the PPU include the following:

        Self-scheduling:
                                   Sta schedule their own work hours using
        majorty vote. Flxible                                                          gudelies detened
        frm trrional schedules4-y, lO- hour shifts
                                by stag
                                                   prde                       oprima COverge. Shifts var
                                                               hourly between 5:00
           m., and 8:00 and 10:00 p.                                               an 8:00 a.m., 1:00 and 3:00
     . Salaried Staff 

                                Nur receve no over or "on ca" pay. The unt
      savigs of $100,
                                 00 by elimiating
                                                             pol and agency nures
                                                                                               eSttes annual
      increasing nurse salares.                                                       and overtme pay, while

     Decision by Committee: 

                                              Commttees known as "
     operarions: educarion                                                 quality cirles
                                                                   " make desions on unj,
    Each cirle consists of, per review, budget, quaity assurance, stafing and scheduling.
    months. Every nurse
                                          th
                                 to five nurs who rotate between
                                                                  cOmmttes every
                         parcipates, some in two cirles simultaeously.
   Regular Staff Meetings: 

                             Nurses are
   meetings held every month.           reuired to attend at least one of the two staff
                                Thee to five nurses also
   physicians meetig. Communicarion between nures pancipate
                                                         
           in the monthly
   since this practice staed.                            and physicians ha imprved


  Self Performance Appraisals: 


  assessments ar
                                                    Nures evaluate their own perfonnance and their self
                            reviewed by
                                                   peers.
                                 THE MEDICAL CENTER AT PRINCETON

                                            Princeton, New Jersey


    Background:    The Medcal Center at Prnceton (MCP) is a 440­
    ceton , New Jersey. The acute car facilty                        be compfex located in Prn­
                                               has 270 beds, the skilled nursing rehabilitation unit
    has 90 beds, and the psychiatrc unit has 80 beds.

    When the present CNO assumed her position in 1980, the nurse
    were 38 percent and 18 percent respetively. After               turover and vacancy rates
                                                      soliciting sta feeback and analyzing the
   situation, she sought and received Board approval of her
                                                            pro-nuring philosophy, and
   several significant actions:                                                        for

              improved nursing salar and benefits
                                                     strctue;
              decentralized nursing management;

             establishment of clinical career laders;

             implementation of a closed unit stafmg     system;

            creation of a hospital- based nursing
                                                    pol; and


            adoption of a patient centere   car model.



 The success of these measurs was reflecte in the
 2 percent. These rates remained stable until
                                                            1982 vacancy and   tuover rates of 15 and
                                                     Januar 1987, when competing facilties began of­
 fering large salar increass, bonus packages and bounties 

 nurses accepte positions at these hospitals. The remandertofound
                                                               attct area nures. Many MCP
                                                                    themselves workng double
 shifts, to many weekends and floating to units with insufficient personnel.
27 percent and the vacancy rate reached 19 percent in 1987.                         Turover rose

Importance of Board Support: 

                                The CNO' s first step was to seek Boar
cent acoss the board salar incrase for nures, to                       approval for a 20 per­
year in order to mainta party. May boar
                                                   be granted in         th
                                                                    steps thughout the
                                            members ar CEOs frm neighboring Fonune
500 companes. Their business expertse enabled them to recognize that they "

hospital without nures. " They approved the salar                           can t run the

                                                           increase.
New Ways to Deliver Patnt            The CNO also sought sta input on the reasons for their
                                   Care:
dissatisfaction. Thee areas were identified: schedules, salar/benefits and nuring/non-nurs­
ing functions. As a result of reoIIendations made by
these concerns, a number of actions have been taken:              subcommnees established to addrss
                                                                                                   ,"




         Creative Work Schedules 

                                - A weekend premium pay pilot program has been instituted
        which has allowed staf more weekends 

                                                          off.

        Salary/Benefit
                                - Staf have received two raises and an increase in base salares.

       Nursing/Non-Nursing Functions: 

                                              Within the
       all functions they were performng, and then distinguished  priar
                                                                  nursing modelthose
                                                                      between        which
                                                                                , nures     must be

                                                                                        identified
       perfonned by an RN and those which could be delegated. This exercise led to a
       complete rethinng and
                                    analysis of delivering car economically without
       quality.                                                                      sacrificing

     The result was a new car moel which
                                             clearly identifies patient
       responsible staf person. Tasks
                                    were incorprate into job descrptionscar functions and the
     orientation was provided. Professional                                  and in
                                            nuring                                  service
     suppon personnel whose positions had been 
     sta  ar  no  longer being substituted for
                                                 elimiated to cut costs.

The CNQ remains commtt
                            to "nursing being able to
mang the system revolve arund                         provi complete, high-quality car-­
                                           the cargiver , not the cargivers
Boa'    contiuig suppor     for nursing has been
                                                                              arund the system.
ben inuential in improving nure-                         regnze                       " The

                                                            thughout the hospita , and has
                                    physician relationshps. The

coupled with these specific changes have                         prnurng envinment
of 1988 , both tuover and                 alady had a positive impact. During the first half
                           vacancies droppe to 12 percent.
Contact for more informaton:
     Medcal Center at Prnceton

     253 Witherspon Street

     Prceton , New Jersy 08540

     Elizabeth L. Buff, RN
                           , MA .
     Vice Prsident for Nursing
    (60) 734-4593

                                            ST. LUKE' S EPISCOPAL HOSPITAL
                                                        Houston, Texas

    Background:     Sl Luke s Episcopal Hospital is a private, not- for-
    cated in the Texas Medcal Center complex in Houston.                 profit, acute car facility lo­
                                                              Recognize      as
    cal centers in the world, it perfonn 12, 00 surgical cases per year. Withone     of 10 major surgi­
                                                                                  949 licensed beds,
    St. Luke s provides car in 40 medcal specialties.

   When the CUIent CNO came to St. Luke s in 1985
                                                      , the RN tuover and vacancy rates stoo
   at 66 and 28 percent. The CNO saw this crsis as an opponunity      for change.
   listener and faciltator, she has fostere an envionment that is "               A self-described
   Both sta and patients ar seen as problem identiers and           focused on  solvig problems.
   continualy sought thugh an
                                                             problem    solvers. Their opinions are
                                   ongoing surey proess initiated by the CNO.

  The CNO'            crbilty
                       with sta, pers and upper maagement has been built on swit im­
  plementation of recommnded changes.
                                         She challenges sta not to overstudy a problem
  to determne what               nee
                        to be done, test a solution and, if it fails,                  , but
  this technique has ben borne out by dramatic                       tr again. The success of

                                                 drps in nurse tuover and vacancy rates to 6

  percent and 8 percent for the first hal of 1988. It
                                                      was also from ths proactive
  that nurses were selecte to sta Sl Luke s "                                     envirnment

                                                Super Unit.

  Super Unit: 
        The Super Unit is a 47- be medcal-surgical unit where solutions to
 piloted. All         sta identify problems. A resident maagement engineer investigatesproblems    ar ,­
 quantifies possible solutions. Every step includes input from unit                       issues and
 are highlighted below: '                                                       sta. Two CUIent   projects

           Installation of Additional Telephones: 


           nurses found that they often missed calls
                                                    With most of their        tie
                                                                            spent at the bedside.
                                                       frm physicians beause of the time needed to
           reach the nurses ' station. Instalation of
                                                      extr telephones half-way down the halls has
           resulted in a 50 percent improvement in the number of calls completed.

           Patient Care Area Pharmcist:               When staf nurses reponed they were spending too
           much tie         performg pharaceutical functions, a phanacist
           The resident         pharist has proven to be a valuable resource towasphysicians,
                                                                                    assigned to the unit.
                                                                                              nurses and
          patients, and nurses              tie has ben fred up
                                                   for nursing tasks. In the words of the
          pharcy ditor, " we are no longer just a voice at the other end of the phone.

Community Outreach Program: 

                                   This program began in Apri 1987 when a nurse asked for
help in mang a health presentation at her child'
                                                  s school. By June 1988, the progr had
made 62 visits to schools and health fai and


stitutions.
263 health topics. It has involved
                                               contacted over 20, 00 chidren and adults
                                   Ipultidisciplinar teams of nures and other sta from
Luke s laboratory, dieta and pharacy deparents,
                                                       as well as professionals frm other 1 n ­
 Shared Governance: 
   The theme of St. Luke s shared governance is nurses ' accountability

 and responsibilty for patient care. It is based on "promoting professional nuring from the

 bottom. " St. Luke s adopte its the- tiered model of shar governance 2 years ago.


          Unit Council: 
    Consisting of unit staff nures, it deals with all issues affecting the unit,
               g., hirng, budgets, scheduling, peer review. Unit councils are fully operational.

          Clinical Area Council: 
     Stil in the   planning phase, its responsibilties cover an entie
          clinical specialty.

          Staff Nurse Council: This hospita-wide boy includes representatives from all unit
          councils and is co-chaied by an elected staf nurse and the CNO. It addrsses problems
          involving more than one clinical ara. All clinical task forces and commttees repon to
         it.

Nursing Support Servces:             Initialy created to help nures deal with changes    in the nuring
deparent, the NSS is a confdential service of professional and personal suppon for beside
nurses. Aid is provided in an environment where             any job relate or personal concern can be
discussed.

         On the professional side, the NSS clinical nurse specialists consult on pain management,
         bereavement counseling and other clinical specialties, as well as providing in-service
         education specifically tailored to the unit's staf nees.

         On the personal side, NSS offers career counseling, suppon groups, negotiation skills
         and substace abuse programs.



In the words of the CNO, NSS " acknowledges that nuring is difficult and
tance to the organzation.
                                                                                     affi its impor­
Contact for more informatn:
     St. Luke s Episcopal Hospita
     Texas Medcal Center
     6720 Benner Strt, P.O. Box 20269
     Houston, Texas 77225-0269
     Karlene Kerfoot, PhD , RN
         Senior VicePrsident for Nursing
         (713) 791-4080
                                                                                                        ,'




                                       SEQUOIA HOSPITAL
                                       Redwood CIty California

     Background:   Built in 1950, Sequoia Hospital is 438-
                                                           be not- for-profit acute-care facility lo­
    cated in Redwoo City, Cafornia. Over the past 2 years, extensive     renovations have been
    complete in the labor and delivery areas,
                                              binng rooms
    increased bins in the area, the hospita added a level 2 and extended nurery aras. Due to
    cal problems. A shon stay admssion unit is under
                                                            nurery to car for babies with medi­
                                                       constrction. The hospita is known for its
    cardiovascular deparnt and provides a varety of speialty
    bypass surgery, coronar researh and invasive cardiac         servces including coronar
    and extended car.
                                                             procedurs, sleep disorders treatment

   In June 1988, budgeted RN positions totaed 534
   Half of the nuring sta have associate degrs, 40, over twce the number neeed in 198!.
                                                       percent have baccalaurate degrs and
   percent ar diploma nurses. All clinical specialists and some unit
   prepard.                                                          maagers are masters

   Durg 1980­     , the RN tuover was 16 percent. Tody it is
                                                                 lessaverage
  vacancy rate for the first 6 months of 1988 was 6 percent and the   than 3 percent. The RN
  employment now stads at 9. 5 years. The RN to patient ratio vares from lengt of RN
  care and carac car units to 1:6 for the medcalsurgical unit.               1:1 for the intensive

  The CNO is an Associate Admstrator, who believes that "
  in senior maagement at Sequoia. " She strsse             nuring has a very strng presence
                                                that may changes in the hospita ar pos­
  sible beause " we have an admistrator who
                                            is a real supponer of nuring.
 Nurse Internship Program: 

                                 The hospita has had an active reitment commttee
  1980. One of its most successful progrs                                              since
                                               is the nurse internship progr which began in
 early 1987. It is gear toward senior nursing students from several area nursing schools who
 have at least 1 year of cliical trning.
                                           Students complete a summr orientation and work

 pan tie durng the school year. Since Sequoia nurses have a reputation      in the community of

 trating patients well , students
                                  ar very reeptive to the progr
 employmnt afr gruation. 
                                           and many accept permanent

Because the interns ar alady famiar
                                         with the hospita when     hir
their orientation costs ar lower than for other new graduates and the into permanent positions.
fully prouctive employees is reuced. The                                 tie reuir to become
                                              intern progr is designed for 15 to 20 students
and is funded thugh the regular hospital budget. As expressed by the CNO, it has been "
trmely successful."                                                                        ex-

Hospital Nursing Committees: 

                                  Sequoia has thee nursing commttees which
visible thughout the hospita.                                                    ar highly
      Council on Nursing Practice  (formrly the Procedures Commttee): This
                                                                                 group of 15 to
      20 nures from all clinical specialties update policies, procedures and protocols. The
      commttee works so well that revision of the nursing procedurs manual wil be
      completed 1 year earlier than its original deadline.

      Nursing Quality Assurance Council: 
  This is a group of staff nures, with cliniCal
      specialists as advisors, who develop stadads of practice. They conduct a mock
      JCAHO inspection and infonn managers of possible violations that should be corrcted
      before the actual review. They also wrte a " Staying Ready for JCAHO" column for the
      hospita' s monthly nuring newsletter.

      Nursing Excellence Commttee: 
    This commttee reviews issues and problems identified
      by nuring staff and develops propose strtegies and solutions. Issues addressed to
      date include (1) accessibilty of admnistrative and nursing managers, (2) marketing the
      hospital in the community and (3) the handling of non-nursing taks.

Adopt-     School Program:
              Several year   ago, Sequoia " adopted"   an area midde school.
Durg National Nures Week , nurses visit the school and meet with students. To expand the
contact beyond the health car professions, hospital accounting sta meet with math students
to discuss careers in accountig.             The   students prouce crts for patients and provide the
entenanment for the annual employee appreiation dier durng the holidays. The hospital
has also staed a junor nurses ' club at the school and plans ar underway to conduct student
tour of the hospital.

Contact for more informatn:
     Sequoia Hospita
      Whpple and Alamed Avenues

      Redwoo City, Calforna 94062

      Donna Derner, RN-Employment Speialist

      Nurse Recitmnt Cordator

      (415) 367-5525
                                    WASHINGTON HOSPITAL CENTER
                                                 Washington, D.



Background:             Washington Hospita Center (WC) is an inner city teaching facilty, which ser­
ves as both a trauma center and a regional health care provider. Upon completion o(a new ad­
dition, bed capacity wil tota 871. The WHC is the " flagship " facilty of the Medlantic Health
Care Group.

The WHC employs five RN s for every auxilar                sta person. The RN vacancy rate for the
first quarer of 1988 was 7 percent in an ara where the average is 18 percent Over half of the
nursing sta have bachelors degrees and about 10 percent ar maters prepared. Nurse patient
ratios var from 1: 1.2 in intensive care to 1:5 on the medcaVsurgical units.

In 1978, WHC nures went on stre for 31 days to protest wages and workg conditions. In
March 1982, major strtegic downsizing occur wherein 13 top level executive positions

and the executive team             tr
were deleted frm the hospita' s organzational strctu. The              Deparnt was     rerganized
                                 to six. It was in this crsis envinment that the present CNO
accepted the chalenge " to establish a dynamc nuring division -- one that respects, recog­
nizes and underscores the value of professional nursing practice.

The Team Approach to Everything:                The reorganize executive team set about tuing around
a nuring deparent with a " por self- image. " Using an approach where no one team mem-
ber, including the CNO, was overly visible, they completely restrctu the nuring depan­
ment. Policy and procedur formats were modfied commttees were restrctued to include
sta nures, communication lies were opened, a professional practice modl was
                                                                                 imple­
mented, and a nuring maagement information system was established. In adtion, the nurs­
ing focus was shited to a business approach to health car delivery, and the nuring
philosophy was revised.

The WHC Nursng Philosophy:        The executive team believes that the nursing philosophy
 must say what you believe in. " It is the underlying basis for all activities which ar tageted
towar " always reaching beyond the expeted" level of performance and fostering excellence
in nursing pratice.             The phiosophy, reprinted below, is displayed proently on
and work       ar in the nuring deparnt.                                                   al desks



          Nursing at the Washington Hospital Center is
            Distinction in clinical nursing practice through working with each patient and
         famly to maintain or restore the optimum level of health or to face death with dig­
          nity.
              Distinction in nursing research and education through advancing and support­
          ing the acquisition of knwledge.
            Distinction in nursing administration through leadership within an atms­

         phere of collaboration, creativity and positive regard.

    Nursing Product Line: 

                            The prouct line was develope to reognize WHC'
    expertse and foster nuring s image as a business.                     s clinical nursing
                                                    Al nuring
    tion on existig nuring proucts or those under development sta were asked for infonna­
    were identied: operations management,                       Four maketable prouct aras
                                           consultat services, educational seminar and publi­
    cations.

    After developing products in each of these aras,
                                                  WHC fonnally introduced its product line in
   October 1986 at the annual meeting of the American Organization of Nurse Executives. Two
   WHC proucts ar highlighted below.

            Nursing Connections: 

                                     Nuring Connections " may be one ofWHC'
            and ambitious projects. It is the fit scholarly                      s most innovative
                                                            nuring joural published by 

            care facilty in the countt. The joural promotes                              an acute
            varety of practice settgs and bridges the gap between education and practice. in a
                                                               collaboration between nurses
            ar wrtten by nures, business professionals, lawyers and others interested in     Anicles
            contrbutig to the practice of nuring.

           Team Teaching: 

                             Ara universities asked the CNO to teach nuring adnistration

           courses at the senior masters level. She accepted on the condition that she be allowed to
           involve a l7-member multidiscipliar team to
                                                        teach each course. She believes that,
            everyone brings strngts and expertse to the effort
                                                               " A collborative environment
           allows " everyone to be recognize. "

Last year, prouct line activities rase a
                                          substatial amount for the nursing budget. The suc-
cessful marketing and delivery of the
                                       prouct lie demonstrates an abilty to blend business

with nursing while enhancing professional 

health car delivery system , and            grwth, reognizg nuring as a leader in the

                                  creatig an envinment conducive to reruiting and retaining

qualfied and highly cOmmtted sta.

Nursing FeUowship: 

                                     Ealy in 1989, the first post
tems management wi                                              gruate nuring fellowship in health sys­
                                     begi with the Haar      School of Public Health.
Contact for more informatn:
     Washigton Hospita Center
         110    Irg Strt, N. W., Room 2A26
         Washigtn, D. C. 20010

        Joyce E. Johnson , RN , DNSc

        Vice Prsident, Division of Nuring

        (202) 877- 6698
